CERTIFICATE OF COMPLIANCE
This Certificate of Compliance verifies that the instant Petition fora Writ of
Certiorari complies with certain Word Count requirements of Rule 33.1(g)(i).
Pursuant to Rule 33.1(h), this Certificate is hereby submitted detached from
said brief. The undersigned certifies that the foregoing work product conforms
to the typeface and print size limitations of Rule 33 as follows:
A. EXCLUSIVE OF EXEMPTED PORTIONS IN RULE 33.1(d), THIS BRIEF
CONTAINS;
1. 8.998 words. The text is 12 point, whereas footnotes are 10 point.
2. The Petition has been reproduced with a clarity that equals or
exceeds the output of a laser printer.
B. THE BRIEF HAS BEEN PREPARED;
1. Using Microsoft Word 97.
2. With Century Schoolbook rWin95BTl typeface font.
3. With a prayer for acceptance of the briefing materials.
C. EXTRA COPIES OF THE BRIEF WILL BE MADE AVAILABLE ON
REQUEST OF THE COURT.
D. THE UNDERSIGNED HEREBY CERTIFIES THAT THIS SUBMISSION
IS COMPLETED, SERVED, AND TIMELY FILED.

DATED this 2nd day of September 2019.

Signature of Petitioner

-fflcrlificatc-

RECEIVED
SEP ~ 9 2019
OFFICE OF THE CLERK
filiPREME COURT. U.S,

